App. No. ___

IN THE

SUPREME COURT OF THE UNITED STATES
CIC SERVICES, LLC,
Applicant,
v.
INTERNAL REVENUE SERVICE; DEPARTMENT OF TREASURY;
UNITED STATES OF AMERICA,
Respondents.
CERTIFICATE OF SERVICE
I, Jeffrey M. Harris, counsel for Applicant, hereby certify that on this 21st day
of October, 2019, I caused three copies of the foregoing Application to be filed with
the Clerk of the United States Supreme Court via hand delivery, and to be served on
the following by first-class mail and electronic mail:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N. W.,
Washington, DC 20530-0001
Counsel for Respondents

/s/ Jeffrey M. Harris
Jeffrey M. Harris
CONSOVOY MCCARTHY PLLC
ANTONIN SCALIA LAW SCHOOL
SUPREME COURT CLINIC
1600 Wilson Blvd., Suite 700
Arlington, VA 22209
(703) 243-9423
jeff@consovoymccarthy.com

8

